                                                               Issue Date
                                                                    June 19, 2007
                                                               Audit Report Number
                                                                    2007-PH-1007




TO:        Lloyd W. Wilkerson, Director, Multifamily Program Center, Charleston Field
            Office, 3CHMLAT


FROM:



SUBJECT:   Oak Mound Associates, Clarksburg, West Virginia, Improperly Billed HUD for
            Section 8 Subsidies


                                 HIGHLIGHTS

 What We Audited and Why


           We audited Oakmound Apartments, Clarksburg, West Virginia, based upon your
           concern that Oak Mound Associates (Oak Mound) overbilled the U.S. Department
           of Housing and Urban Development (HUD) for its project-based Section 8
           subsidy. Our overall audit objective was to determine whether Oak Mound
           properly submitted bills for Section 8 subsidy according to contractual
           requirements and HUD regulations.

 What We Found


           Oak Mound did not always submit bills for its Section 8 contract subsidy in
           accordance with contractual requirements and HUD regulations. Our review of
           10 tenant files identified problems with the monthly housing assistance payments
           in all 10 files. Oak Mound did not request the proper subsidy in 53 of the 121 (44
           percent) individual monthly subsidy requests reviewed in these 10 files. The
           audit identified subsidy overpayments totaling $3,473, resulting from Oak
           Mound’s failure to properly adjust its requests for housing assistance payments
           when tenant income increased ($2,626) and because Oak Mound improperly
           requested subsidies when units were vacant for up to 13 days ($847). Oak Mound
           also lacked proper documentation to support other housing assistance payments it
           received totaling $5,671.

What We Recommend


           We recommend that the director of HUD’s Multifamily Program Center direct
           Oak Mound to repay the contract administrator $3,473 from nonfederal funds for
           the ineligible housing assistance payments it received and provide documentation
           to support the $5,671 in questioned costs and, if any of the costs cannot be
           supported, reimburse the contract administrator from nonfederal funds. We
           further recommend that HUD direct Oak Mound to develop and implement
           policies and procedures to ensure that subsidy requests are accurate, fully
           supported by documentation in the tenant files, and maintained as required.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the report with Oak Mound during the audit and at an exit conference
           on June 1, 2007. Oak Mound provided written comments to our draft report on
           June 4, 2007. Oak Mound accepted the conclusions in the report and agreed to
           repay all of the questioned costs. The complete text of the auditee’s response, along
           with our evaluation of that response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                4

Results of Audit
      Finding: Oak Mound Improperly Billed HUD for Section 8 Subsidies   5

Scope and Methodology                                                    9

Internal Controls                                                        10

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use     11
   B. Auditee Comments and OIG’s Evaluation                              12
   C. Deficiencies and Questioned Costs by Tenant File                   15




                                            3
                          BACKGROUND AND OBJECTIVES

Oak Mound Associates (Oak Mound) was formed under the laws of the Commonwealth of
Pennsylvania on June 6, 1980, as a limited partnership for the purpose of constructing, owning,
and operating Oakmound Apartments. Oakmound Apartments is a 159-unit complex located in
Clarksburg, West Virginia. It is managed by NDC Real Estate Management, Inc., an affiliated
corporation of Oak Mound. NDC Real Estate Management, Inc., was established in January
1982 by the principals of National Development Corporation, a real estate development company
headquartered in Pittsburgh, Pennsylvania. NDC Real Estate Management, Inc., has more than
20 years experience in the operation and management of rental housing, as well as
condominiums and homeowner associations. NDC Realty Investments, Inc., is the general
partner in the Oak Mound limited partnership.

The project is financed by a mortgage loan insured by the U.S. Department of Housing and
Urban Development (HUD) pursuant to Sections 221(d)(4) 1 and 223(a)(7) 2 of the National
Housing Act. The project receives Section 8 project-based subsidies for eligible low-income
tenants under a project-based Section 8 housing assistance payments basic renewal contract
(contract). In May 2002, Oak Mound renewed its Section 8 contract with the West Virginia
Housing Development Fund (contract administrator) for a 5-year period. The contract
administrator is responsible for monitoring Oak Mound’s compliance with Section 8 program
requirements, receiving and reviewing its monthly subsidy vouchers, making monthly subsidy
payments to Oak Mound, and working with it and/or the management agent to resolve issues
related to voucher reviews or routine contract monitoring. For 2004 and 2005, Oak Mound
received an average annual subsidy of $873,000.

Our audit objective was to determine whether Oak Mound properly submitted bills for Section 8
subsidy according to contractual requirements and HUD regulations.




1
  Section 221(d)(4) is a HUD multifamily housing program that provides mortgage insurance for the construction or
substantial rehabilitation of multifamily rental properties consisting of five or more units for up to 90 percent of a
project’s estimated replacement cost.
2
  Section 223(a)(7) gives the Federal Housing Administration (FHA) the authority to refinance FHA-insured loans
of multifamily rental properties consisting of five or more units up to 85 percent of appraised value.

                                                          4
                                 RESULTS OF AUDIT

Finding: Oak Mound Improperly Billed HUD for Section 8 Subsidies
Oak Mound did not always submit bills for its Section 8 contract subsidy in accordance with
contractual requirements and HUD regulations. Oak Mound did not request the proper subsidy
or could not support that it requested the proper subsidy in 53 of the 121 (44 percent) individual
monthly subsidy requests reviewed. As a result, Oak Mound was overpaid at least $3,473
because it failed to properly adjust its payment requests when tenant income increased and for
days when units were vacant. Oak Mound also could not properly support housing assistance
payment requests totaling $5,671. These problems occurred because Oak Mound did not
establish and implement adequate policies and procedures to ensure that its subsidy requests
were accurate and complete, in accordance with applicable HUD requirements.


 Oak Mound Billed for Ineligible
 and Unsupported Subsidies



               Our audit identified problems with housing assistance payments requests in all 10
               tenant files reviewed. More specifically, Oak Mound did not request the proper
               subsidy in 53 of the 121 (44 percent) individual monthly subsidy requests
               reviewed in these 10 files. Oak Mound requested and received subsidy
               overpayments totaling $3,473, because it did not properly adjust its requests for
               housing assistance payments when tenant income increased ($2,626) and because
               it improperly requested subsidies when units were vacant ($847). Oak Mound
               also lacked proper documentation to support other housing assistance payments it
               received totaling $5,671. Details are discussed in the paragraphs below.

                   •   In seven of the files, Oak Mound’s payment requests included subsidies
                       for up to 13 days when the units were vacant. HUD Handbook 4350.3,
                       chapter 9, states that owners are entitled to assistance payments only for
                       the actual number of days during the month that the tenant occupies the
                       unit. For these seven units, Oak Mound received formal written
                       notification of move-out dates, such as notices from the utility companies
                       detailing the exact date that the tenant vacated the unit, but failed to adjust
                       its payment requests accordingly. As a result, Oak Mound improperly
                       received $847 (12 monthly payments) in housing assistance payments for
                       these seven tenants.

                   •   In three of the files, Oak Mound did not retroactively adjust rents as
                       required. HUD Handbook 4350.3, chapter 7, states that owners must
                       process an interim certification and retroactive rent increase to the first
                       day of the month following the date that the action occurred when a tenant

                                                  5
       fails to notify the owner that the family’s income has increased by more
       than $200 per month. Oak Mound did not comply with this requirement,
       and as a result, it improperly received $1,787 (27 monthly payments) in
       housing assistance payments for these three tenants.

   •   In one of the files, Oak Mound did not increase the tenant’s rent as
       required. HUD Handbook 4350.3, chapter 7, provides that if a tenant’s
       rent increases because of an interim adjustment, the owner must give the
       tenant 30 days advance notice of the increase and that the effective date of
       the increase will be the first of the month commencing after the end of the
       30-day period. Oak Mound did not comply with this requirement, and as a
       result, it improperly received $291 (one monthly payment) in housing
       assistance payments.

   •   In one of the files, Oak Mound did not properly calculate the total tenant
       payment when the tenant received a delayed benefit payment in a lump
       sum. HUD Handbook 4350.3, chapter 5, states that settlement payments
       from claim disputes over welfare, unemployment, or similar benefits may
       be counted as assets, but lump-sum payments caused by delays in
       processing periodic payment for unemployment or welfare assistance are
       included as income. Oak Mound did not comply with this requirement,
       and as a result, it improperly received $548 (three monthly payments) in
       housing assistance payments.

   •   In three of the files, Oak Mound could not support that it requested the
       proper subsidy. Oak Mound was required to ensure that the tenants signed
       a HUD 50059 form certifying compliance with HUD’s tenant eligibility
       and rent procedures and that a copy was maintained in the tenant file.
       HUD Handbook 4350.3, chapter 9, requires owners to keep the signed
       50059 facsimiles for all subsidized tenants from the time of move-in to
       move-out and for a minimum of three years thereafter. Oak Mound did
       not maintain the form as required in two of the tenant files. In the third
       file, although Oak Mound maintained a copy of the HUD 50059 form, it
       was not signed by the tenant. This is critical because the tenant also did
       not complete an alternate zero income certification. Therefore, Oak
       Mound had no record of the tenant’s certifying to zero income.
       Consequently, the $5,671 (10 monthly payments) in related housing
       assistance payments for these three tenants is unsupported.

We audited the monthly payments of only 10 units due to Oak Mound’s lack of
adequate accounting records, as discussed below. Therefore, we are concerned
that Oak Mound’s improper billing practices could be much more prevalent than
the audit identified, considering that it is a 159-unit apartment complex.
Appendix C of this report lists the discrepancies identified in the 10 tenant files
reviewed.


                                  6
    Oak Mound Lacked Adequate
    Controls and Records



                  The problems occurred because Oak Mound did not establish and implement
                  policies and procedures to ensure that subsidy requests were accurate and fully
                  supported by documentation in the tenant files. By implementing our
                  recommendations and improving controls over its subsidy requests, Oak Mound
                  will cease collecting ineligible housing assistance payments and, thereby, put at
                  least $1,389 3 to better use in the future.

                  Also, Oak Mound lacked controls to ensure that it maintained accurate and
                  complete accounts, books, and records for the project in compliance with
                  applicable HUD requirements 4 and generally accepted accounting principles as
                  required by its regulatory agreement. 5 Oak Mound did not maintain subsidiary
                  tenant accounts receivable ledgers or reconcile the balances and, therefore, it did
                  not maintain its records in a condition to facilitate an effective audit. However,
                  using available documentation, such as monthly closing reports, records of
                  subsidy deposits, and tenant deposits, we re-created the monthly accounts
                  receivable balances to complete our review of the 10 tenant files selected from the
                  period January 2004 through June 2006. The lack of the required financial
                  information prevented us from auditing a larger sample of tenant files as planned.
                  Oak Mound needs to develop and implement controls to ensure that the project’s
                  accounts, books, and records are accurate, complete, and in full compliance with
                  applicable federal and HUD requirements.


    Recommendations


                  We recommend that the director, Multifamily Program Center, Charleston field
                  office, direct Oak Mound to

                  1A.      Repay the contract administrator $3,473 from nonfederal funds for the
                           ineligible subsidy payments identified.

                  1B.      Provide documentation to support the $5,671 in questioned costs identified
                           and, if any of the costs cannot be supported, reimburse the contract
                           administrator from nonfederal funds.


3
  $1,389 of funds to be put to better use is calculated by dividing $3,473 (the ineligible costs identified) by 30
months (the audit period) and multiplying by 12 months (to annualize).
4
  HUD Handbook 4350.3, Occupancy Requirements of Subsidized Multifamily Housing Programs and HUD
Handbook 4370.2, REV-1, Financial Operations and Accounting Procedures for Insured Multifamily Projects.
5
  Regulatory Agreement for Insured Multifamily Housing Projects (with Section 8 housing assistance payment
contracts).

                                                           7
1C.   Develop and implement policies and procedures to ensure that subsidy
      requests are accurate, fully supported by documentation in the tenant files,
      and maintained as required, thereby putting $1,389 to better use.

1D.   Develop and implement controls to ensure that the project’s accounts,
      books, and records are accurate, complete, and in full compliance with
      applicable federal and HUD requirements.




                                8
                         SCOPE AND METHODOLOGY

We performed the audit at Oakmound Apartments, located in Clarksburg, West Virginia, and at
NDC Real Estate Management, Inc. (management agent), located in Pittsburgh, Pennsylvania, from
September through December 2006. The audit was performed in accordance with generally
accepted government auditing standards and included tests of internal controls that we considered
necessary under the circumstances. During the audit, we assessed the reliability of computer-
processed data relevant to our audit by comparing the data to hard-copy information. We found
the computer-processed data were sufficiently reliable to meet our audit objectives.

The audit covered transactions representative of operations at the time of the audit and included
the period January 2004 through June 2006. We expanded the scope of the audit as necessary.
We discussed operations with the management agent’s staff and key officials from the West
Virginia Housing Development Fund (contract administrator) and HUD’s Charleston, West
Virginia, field office.

To determine whether Oak Mound submitted bills for Section 8 subsidy in accordance with
contractual requirements and HUD regulations, we

   •   Reviewed Oak Mound’s internal control structure.

   •   Reviewed the independent auditor’s reports for Oak Mound for fiscal years 2003 through
       2005.

   •   Reviewed Oak Mound’s project-based Section 8 housing assistance payments basic
       renewal contract, regulatory agreement, and applicable HUD program regulations and
       guidance.

   •   Reviewed the management agent’s management certification for projects with identity-
       of-interest or independent management agents.

   •   Reviewed correspondence maintained by HUD, the contract administrator, and Oak
       Mound related to the audit and results of monitoring reviews.

   •   Randomly selected and reviewed the tenant files for 10 former tenants to determine
       whether they were eligibile for Section 8 subsidies and whether housing assistance
       payments were calculated correctly. Based on our work, we estimate that Oak Mound
       will put $1,389 to better use by implementing our recommendations and ceasing to
       collect ineligible housing assistance payments. We calculated the $1,389 of funds to be
       put to better use by dividing $3,473 (the ineligible costs identified) by 30 months (the
       audit period) and multiplying by 12 months to annualize.

   •   Reviewed all documentation provided by Oak Mound related to our audit objective,
       including general ledgers, bank statements, closing reports, rent schedules, utility transfer
       agreements and related correspondence, and subsidy payment vouchers.
                                                 9
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

           •   Policies, procedures, and controls implemented to ensure that Oak Mound
               properly submitted bills for Section 8 subsidy according to contractual
               requirements and HUD regulations.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

       Oak Mound did not

           •   Establish polices and procedures to ensure that subsidy requests were accurate,
               fully supported by documentation in the tenant files, and maintained as required.

           •   Establish controls to ensure that the project’s accounts, books, and records were
               accurate, complete, and in full compliance with applicable federal and HUD
               requirements.


                                                 10
                                     APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


       Recommendation         Ineligible 1/        Unsupported 2/    Funds to be put
              number                                                  to better use 3/
                  1A             $3,473
                  1B                                  $5,671
                  1C                                                    $1,389



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if Oak Mound implements our
     recommendations, it will cease collecting ineligible subsidies. Once Oak Mound
     successfully improves its controls, this will be a recurring benefit. To be conservative,
     our estimate reflects only the initial year of these recurring benefits.




                                              11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         12
Comment 1




            13
                         OIG Evaluation of Auditee Comments


Comment 1   We disagree that HUD instructions applicable to the audit were unclear and
            ambiguous. Rather, Oak Mound needed to develop and implement policies and
            procedures to ensure that its subsidy requests were accurate, fully supported by
            documentation in the tenant files, and maintained as required.




                                            14
                                                                                                                            Appendix C




                                                            Unit numbers of tenant




      4108
      4307
      3209
      4102
      4110
      3307
      4207
      2209
      4305
      2108
                                                            files reviewed




     Totals
                                                            Subsidies billed for




                            $19
                            $30
                            $43




     $847
     $201
              $108
              $184
                                                   $262
                                                            vacant units

                                                            Lump-sum benefit
                                                            payment not




     $548
                                            $548
                                                            included in tenant
                                                            income




15
                                                            Required forms not in




              $147
                                                            tenant file or not signed




     $5,671
                                   $3,817
                                                   $1,707
                                                                                                  BY TENANT FILE




                                                            Tenant subsidies not
                                                            adjusted to consider




      $277
      $578
                     $932
                                                            unreported income




     $1,787
                                                            benefits

                                                            Rent increase not



     $291
                            $291


                                                            effective after 30 days
                                                                                        DEFICIENCIES AND QUESTIONED COSTS
